No. 20-5802
IN THE
SUPREME COURT OF THE UNITED STATES
TIMOTHY WADE SAUNDERS
Petitioner,

v.
WARDEN,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit
CERTIFICATE OF SERVICE

Christine A. Freeman, Executive Director
Allyson R. duLac, Assistant Federal Defender
Counsel of Record

Federal Defenders, Middle District of Alabama
817 S. Court Street
Montgomery, Alabama 36104
Telephone: (334) 834-2099
Facsimile: (334) 834-0353
Email: Allyson dulac@fd.org

I, Allyson R. duLac, a member of the Bar of this Court, do hereby certify
that on October 29, 2020 as required by Rule 29 of the Rules of the Supreme
Court of the United States, I served the enclosed Reply to Respondent's Brief
in Opposition, by depositing a copy of the same in the United States Mail,
properly addressed and first-class postage prepaid, on The Office of the
Attorney General, State of Alabama, 501 Washington Avenue, Montgomery,
AL 36130, counsel for the Respondent, Commissioner of the Alabama
Department of Corrections.

Respectfully submitted,

/s/ Allyson R. duLac
Allyson R. duLac
Counsel of Record
Florida Bar No. 067944
Federal Defenders
Middle District of Alabama
817 S. Court Street
Montgomery, Alabama 36104
Telephone: (334) 834-2099
Facsimile: (334) 834-0353
Email: Allyson dulac@fd.ora

